      DEPARTMENT OF HEALTH & HUMAN SERVICES                            Office of Inspector General

                                                                       Washington, D.C. 20201




April 16, 2010

TO:              Charlene Frizzera
                 Acting Administrator
                 Centers for Medicare & Medicaid Services


FROM:            /Joseph E. Vengrin/
                 Deputy Inspector General for Audit Services


SUBJECT:         Review of New Jersey’s Medicaid School-Based Health Claims Submitted by
                 Maximus, Inc. (A-02-07-01051)


Attached is an advance copy of our final report on New Jersey’s Medicaid school-based health
claims submitted by Maximus, Inc. We will issue this report to the New Jersey Department of
Human Services within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at George.Reeb@oig.hhs.gov
or James P. Edert, Regional Inspector General for Audit Services, Region II, at (212) 264-4620
or through email at James.Edert@oig.hhs.gov. Please refer to report number A-02-07-01051.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General


                                                                          Office of Audit Services
                                                                          Jacob K. Javits Federal Building
                                                                          26 Federal Plaza, Room 3900
                                                                          New York, NY 10278

April 23, 2010

Report Number: A-02-07-01051

Ms. Jennifer Velez, Esq.
Commissioner
New Jersey Department of Human Services
222 South Warren Street
P.O. Box 700
Trenton, NJ 08625-0700

Dear Ms. Velez:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of New Jersey’s Medicaid School-Based Health
Claims Submitted by Maximus, Inc. We will forward a copy of this report to the HHS action
official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Richard Schlitt, Audit Manager, at (212) 264-4817 or through email at
Richard.Schlitt@oig.hhs.gov. Please refer to report number A-02-07-01051 in all
correspondence.

                                             Sincerely,



                                             /James P. Edert/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Jennifer Velez, Esq.


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
  Department of Health & Human Services
             OFFICE OF
        INSPECTOR GENERAL




REVIEW OF NEW JERSEY’S MEDICAID
 SCHOOL-BASED HEALTH CLAIMS
  SUBMITTED BY MAXIMUS, INC.




                        Daniel R. Levinson
                         Inspector General

                            April 2010
                          A-02-07-01051
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to certain low-income individuals and individuals with disabilities. The
Federal and State Governments jointly fund and administer the Medicaid program. At the
Federal level, the Centers for Medicare & Medicaid Services (CMS) administers the program.
Each State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements. In New Jersey, the Department of Human
Services is responsible for operating the Medicaid program.

Section 411(k)(13) of the Medicare Catastrophic Coverage Act of 1988 (P.L. No. 100-360)
amended section 1903(c) of the Act to permit Medicaid payment for medical services provided
to children under the Individuals with Disabilities Education Act through a child’s individualized
education plan. Pursuant to Federal and State requirements, such services require a referral or
prescription from a properly credentialed physician or licensed practitioner. These services must
be provided by an individual who meets Federal qualification requirements and be fully
documented. In addition, pursuant to New Jersey’s State Medicaid plan requirements, these
services must be documented in a treatment plan.

For the period July 27, 2003, through October 4, 2006, New Jersey received more than
$32.2 million in Federal Medicaid reimbursement for school-based health claims submitted by
its billing agent, Maximus, Inc. (Maximus).

OBJECTIVE

Our objective was to determine whether New Jersey’s Medicaid school-based health claims
submitted by its billing agent, Maximus, complied with Federal and State requirements.

SUMMARY OF FINDINGS

New Jersey’s claims for reimbursement of Medicaid school-based health services submitted by
Maximus did not fully comply with Federal and State requirements. Of the 100 school-based
health claims in our sample, 49 complied with Federal and State requirements. However, the
remaining 51 did not.

Of the 51 noncompliant claims, 19 claims contained more than one deficiency:

      Thirty-two claims contained services that were not provided or supported.

      Twenty-four claims lacked a referral or prescription.




                                                i
      Fourteen claims did not meet Federal provider qualification requirements.

      Eight claims contained services not documented in the child’s plan.

These deficiencies occurred because: (1) New Jersey provided improper guidance concerning
Federal Medicaid requirements to school-based health providers, (2) school-based health
providers did not comply with guidance related to Federal requirements, and (3) New Jersey did
not adequately monitor school-based health claims for compliance with Federal and State
requirements.

Based on our sample results, we estimate that New Jersey was improperly reimbursed
$8,079,312 in Federal Medicaid funds during our July 27, 2003, through October 4, 2006, audit
period.

RECOMMENDATIONS

We recommend that New Jersey:

      refund $8,079,312 to the Federal Government,

      provide proper and timely guidance on Federal Medicaid criteria to its school-based
       health providers, and

      improve its monitoring of school-based health providers’ claims to ensure compliance
       with Federal and State requirements.

NEW JERSEY COMMENTS

In its comments on our draft report, New Jersey disagreed with our recommended refund. In
addition, New Jersey questioned our sampling methodology and disagreed with what we
accepted as valid referrals. However, New Jersey also described corrective actions that it
planned to take in response to the remaining recommendations. New Jersey also provided
additional documentation for 5 of the 53 claims questioned in our draft report.

OFFICE OF INSPECTOR GENERAL RESPONSE

Our statistical sampling methodology used to determine the estimated overpayment was valid.
After reviewing the additional documentation provided by New Jersey, we determined that some
services for the five claims complied with Federal and State requirements and revised our
findings and recommended refund accordingly.




                                               ii
                                                   TABLE OF CONTENTS
                                                                                                                                       Page

INTRODUCTION.....................................................................................................................1

      BACKGROUND .................................................................................................................1
         Medicaid Program ........................................................................................................1
         Medicaid Coverage of School-Based Health Services.................................................1
         New Jersey’s Medicaid Program..................................................................................1
         Prior Office of Inspector General Audit Reports .........................................................3

      OBJECTIVE, SCOPE, AND METHODOLOGY...............................................................3
         Objective.......................................................................................................................3
         Scope ............................................................................................................................3
         Methodology.................................................................................................................4

FINDINGS AND RECOMMENDATIONS ...........................................................................5

      SERVICES NOT PROVIDED OR NOT SUPPORTED ....................................................5

      REFERRAL OR PRESCRIPTION REQUIREMENTS NOT MET...................................6

      FEDERAL PROVIDER REQUIREMENTS NOT MET....................................................7
         Speech Therapy Provider Requirements Not Met........................................................7
         Occupational Therapy Provider Requirements Not Met ..............................................8

      SERVICES NOT DOCUMENTED IN CHILD’S PLAN...................................................8

      CAUSES OF THE IMPROPER CLAIMS ..........................................................................8
         New Jersey Issued Improper Guidance Regarding Provider Requirements ................9
         Providers Did Not Comply With Federal Requirements..............................................9
         New Jersey Did Not Adequately Monitor School-Based Health Claims.....................9

      RECOMMENDATIONS.....................................................................................................9

      NEW JERSEY COMMENTS AND OFFICE OF
      INSPECTOR GENERAL RESPONSE...............................................................................9
         Sampling Methodology ..............................................................................................10
         Referrals .....................................................................................................................10
         Additional Documentation .........................................................................................11
         Attendance..................................................................................................................11




                                                                      iii
APPENDIXES

    A – SAMPLE DESIGN AND METHODOLOGY

    B – SAMPLE RESULTS AND ESTIMATES

    C – SUMMARY OF DEFICIENCIES FOR EACH SAMPLED CLAIM

    D – NEW JERSEY COMMENTS




                                iv
                                        INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to certain low-income individuals and individuals with disabilities. The
Federal and State Governments jointly fund and administer the Medicaid program. At the
Federal level, the Centers for Medicare & Medicaid Services (CMS) administers the program.
Each State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

Medicaid Coverage of School-Based Health Services

Section 411(k)(13) of the Medicare Catastrophic Coverage Act of 1988 (P.L. No. 100-360)
amended section 1903(c) of the Act to permit Medicaid payment for medical services provided
to children under the Individuals with Disabilities Education Act (IDEA) (originally enacted as
P.L. No. 91-230 in 1970) through a child’s individualized education plan.

Federal and State rules require that school-based health services be (1) referred or prescribed by
a physician or another appropriate professional, (2) provided by an individual who meets Federal
qualification requirements, (3) fully documented, (4) actually furnished in order to be billed, and
(5) documented in the child’s plan.

In August 1997, CMS issued a guide entitled Medicaid and School Health: A Technical
Assistance Guide (technical guide). According to the technical guide, school-based health
services included in a child’s plan may be covered if all relevant statutory and regulatory
requirements are met. In addition, the technical guide provides that a State may cover services
included in a child’s plan as long as: (1) the services are listed in section 1905(a) of the Act and
are medically necessary; (2) all Federal and State regulations are followed, including those
specifying provider qualifications; and (3) the services are included in the State plan or available
under the Early and Periodic Screening, Diagnostic and Treatment Medicaid benefit. Covered
services may include, but are not limited to, physical therapy, occupational therapy, speech
pathology/therapy services, psychological counseling, nursing, and transportation services.

New Jersey’s Medicaid Program

In New Jersey, the Department of Human Services is responsible for operating the Medicaid
program. Within the New Jersey Department of Human Services, the Division of Medical
Assistance and Health Services administers the Medicaid program. The administrative
responsibility for operating New Jersey’s school-based health services program, known as the
Special Education Medicaid Initiative (SEMI), is shared among three State departments: Human
Services, Education, and Treasury. The State also contracted with a billing agent, Maximus, Inc.




                                                 1
(Maximus), to help administer its Medicaid school-based health services program. The
responsibilities of each are as follows:

    1. The Department of Human Services oversees school-based health provider enrollment,
       provides technical assistance to school-based health providers, and processes providers’
       claims through New Jersey’s Medicaid Management Information System fiscal
       intermediary.

    2. The Department of Education (DOE) certifies school-based health providers and provides
       policy guidance.

    3. The Department of Treasury serves as the contract manager for the SEMI billing agent.

    4. The billing agent was responsible for processing billing agreements and pupil registration
       information from school-based health providers, providing technical assistance (including
       monitoring) on school-based health program issues, and conducting Medicaid eligibility
       verification for registered pupils. Maximus was the contracted billing agent for New
       Jersey during our audit period. 1

The primary State guidance for administering and operating the school-based health program is
the SEMI Provider Handbook (State handbook). New Jersey and the billing agent developed the
handbook using both education and Medicaid requirements. The State handbook is issued to all
school-based health providers and contains detailed instructions on their responsibilities under
the school-based health program.

Pursuant to New Jersey’s Medicaid State plan, the school-based health program comprises
rehabilitative services, 2 evaluation services, 3 and transportation services. 4 School-based health
providers submitted monthly “turnaround documents” to Maximus that showed the daily school-
based services provided during the month to each student. Maximus then prepared claims based



1
  Maximus oversaw the SEMI program from November 1998 to January 2005 under a contingency-fee-based
arrangement. New Jersey received Federal Medicaid reimbursement for claims submitted by Maximus through
October 2006. Although Maximus was not paid directly with Federal Medicaid funds, it was paid a percentage of
the Federal Medicaid reimbursements made for New Jersey’s SEMI program. We selected this program for review
as part of a nationwide contingency-fee review.
2
 Often referred to as related school health services, rehabilitative services include occupational, physical, and
speech-language therapies; audiology services; psychological counseling and psychotherapy; and nursing.
3
  Evaluation services identify the need for specific services and prescribe the range and frequency of services that
the student requires. Evaluation services may include reevaluation or review of the current services specified in the
child’s plan.
4
  Transportation services are allowable when provided on the same day as a related service and when transportation
is included in the child’s plan. Pursuant to a May 21, 1999, letter from the Director of CMS’s Center for Medicaid
and State Operations to all State Medicaid directors, only specialized transportation can be billed to Medicaid.
According to CMS, “specialized transportation” means that a child requires transportation in a vehicle adapted to
serve the needs of the disabled, including a specially adapted school bus.


                                                           2
on the documents received. A school-based claim consisted of a bill for related school-based
health services, evaluation services, or transportation services.

The Federal Government’s share of costs for school-based health claims is known as the Federal
medical assistance percentage (FMAP). From July 27, 2003, through June 30, 2004, the FMAP
was 52.95 percent in New Jersey; from July 1, 2004, through October 4, 2006, the FMAP was
50 percent. For the period July 27, 2003, through October 4, 2006, the State received more than
$32.2 million of Federal Medicaid reimbursement for 86,533 claims.

Prior Office of Inspector General Audit Reports

On May 19, 2006, the Office of Inspector General issued a report (A-02-03-01003) on the State’s
SEMI program for the period July 1, 1998, through June 30, 2001. The objective of the audit
was to determine whether Federal Medicaid payments for school-based health services claimed
by school-based health providers in New Jersey were in compliance with Federal and State
requirements. Among other recommendations, the report recommended that New Jersey refund
$51,262,909 to the Federal Government and work with CMS to resolve $1,046,786 in set-aside
claims. 5

On February 8, 2008, the Office of Inspector General issued a report (A-02-04-01017) on the
rates used by New Jersey for claiming Federal Medicaid reimbursement for the SEMI and
Medicaid Administrative Claiming programs. The objective of the audit was to determine
whether the rates used by New Jersey were reasonable and complied with Federal requirements
and the Medicaid State plan. The report recommended that New Jersey work with CMS to
determine overpayment amounts for the period July 1, 1998, through June 30, 2001, and ensure
that rates used to claim Federal Medicaid reimbursement for school-based health services are
properly developed and documented.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether New Jersey’s Medicaid school-based health claims
submitted by its billing agent, Maximus, complied with Federal and State requirements.

Scope

Our review covered 86,533 claims totaling $62,563,888 ($32,223,604 Federal share) for the
period July 27, 2003, through October 4, 2006. During our audit, we did not review the overall
internal control structure of Maximus, New Jersey, or the Medicaid program. Rather, we limited
our internal control review to those controls that were significant to the objective of our audit.

We conducted fieldwork at the Department of Human Service’s offices in Mercerville and
Trenton, New Jersey, as well as at 49 selected schools throughout the State.


5
    CMS sustained the recommendations with minor adjustments.


                                                       3
Methodology

To accomplish our objective, we:

          reviewed applicable Federal and State laws, regulations, and guidelines;

          held discussions with New Jersey and billing agent officials to gain an understanding of
           New Jersey’s school-based health services program;

          obtained an understanding of computer edits and administrative controls regarding
           claiming Medicaid reimbursement for school-based health services;

          obtained a computer-generated file identifying all Medicaid school-based health claims
           submitted by New Jersey for the period July 27, 2003, through June 27, 2007;

          separated the file into two segments based on billing agent: claims submitted by
           Maximus and claims submitted by Public Consulting Group, Inc. (PCG), 6 and the
           Maximus sampling frame consisted of 86,533 student-months (all services provided to an
           individual student for a month during our audit period) with a total Medicaid paid amount
           of $62,563,888 ($32,223,604 Federal share);

          used stratified random sampling techniques to select a sample of 100 claims from the
           sampling frame of 86,533 claims; 7

          visited the school associated with each sample claim to review documentation supporting
           the claim; 8

          determined if the service provider or speech pathologist associated with the sample claim
           was certified by the American Speech-Language-Hearing Association (ASHA) and/or
           licensed by the New Jersey Division of Consumer Affairs, the State licensing agency; and

          estimated the dollar impact of the improper Federal reimbursement claimed in the total
           population of 86,533 school-based claims.

Appendix A contains the details of our sample design and methodology. Appendix B contains
our sample results and estimates.



6
 We will be conducting a separate review (A-02-07-01052) of claims submitted by New Jersey for the period
April 6, 2005, through June 27, 2007, when PCG was the State’s school-based health services billing agent.
7
 The 100 sample claims included 163 services: 46 claims for speech services, 37 for evaluation services, 26 for
occupational therapy services, 19 for physical therapy services, 15 for transportation services, 12 for nursing
services, and 8 for psychological counseling services.
8
    If documentation was not readily available, we accepted faxed copies at later dates.


                                                            4
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                FINDINGS AND RECOMMENDATIONS

New Jersey’s claims for reimbursement of Medicaid school-based health services submitted by
Maximus did not fully comply with Federal and State requirements. Of the 100 school-based
health claims in our sample, 49 complied with Federal and State requirements. However, the
remaining 51 did not. Table 1 summarizes the deficiencies noted and the number of claims that
contained each type of deficiency. Appendix C contains a summary of deficiencies, if any,
identified for each sampled claim.

                          Table 1: Summary of Deficiencies in Sampled Claims

                         Type of Deficiency                                    Number of Deficient Claims 9
      Services not provided or not supported                                              32
      Referral or prescription requirements not met                                        24
      Federal provider requirements not met                                                14
      Services not documented in child’s plan                                               8

These deficiencies occurred because: (1) the State provided improper or untimely guidance
concerning Federal Medicaid requirements to school-based health providers, (2) school-based
health providers did not comply with State guidance related to Federal requirements, and (3) the
State did not adequately monitor school-based health claims from providers for compliance with
Federal and State requirements.

Based on our sample results, we estimate that New Jersey was improperly reimbursed
$8,079,312 in Federal Medicaid funds during our July 27, 2003, through October 4, 2006, audit
period.

SERVICES NOT PROVIDED OR NOT SUPPORTED

Pursuant to section 1902(a)(27) of the Act, States claiming Federal Medicaid funding must
document services provided. This requirement is reiterated in CMS’s technical guide and the
State handbook, which both state that school-based health providers must maintain records
documenting that a related service or evaluation service was provided. The technical guide
states that relevant documentation includes the date and location of the service, the identity of the
provider, and the length of time required for the service.


9
    The total exceeds 51 because 19 claims contained more than 1 deficiency.



                                                          5
In addition, pursuant to 42 CFR § 455.1(a)(2), States are required to have a method for verifying
whether services reimbursed by Medicaid were actually furnished. Further, pursuant to 42 CFR
§ 455.18, New Jersey’s Medicaid provider agreements require providers to certify that the
information on their Medicaid claims is true, accurate, and complete. 10 Providers and billing
agents also certify that they agree to keep records necessary to fully disclose the extent of
services provided, as required by section 1902(a)(27) of the Act.

For 32 of the 100 claims in our sample, school-based health providers received Medicaid
payments for services that were not provided or not supported. 11 Specifically:

          For 18 claims, documentation indicated that the related service(s) billed were not
           provided. Specifically:

                o For 10 claims, documentation for the associated student did not support the
                  number of services billed.

                o For six claims, the associated student’s attendance record indicated that the
                  student was absent from school on at least 1 day that the school-based health
                  provider claimed services.

                o For two claims, the school-based health provider submitted duplicate claims for
                  the same service.

          For 10 claims containing specialized transportation services, school-based health
           providers did not have documentation to support the number of transportation services
           billed.

          For six claims, school-based health providers could not provide any documentation to
           support the related service.

REFERRAL OR PRESCRIPTION REQUIREMENTS NOT MET

Pursuant to 42 CFR § 440.110 (a)(b)(c), a referral or prescription from a physician or another
licensed practitioner of the healing arts is required for physical therapy; occupational therapy;
and services for individuals with speech, hearing, and language disorders provided by or under
the direction of a qualified practitioner to be eligible for Medicaid reimbursement. For nursing
services, the New Jersey Board of Nursing Statute 45:11-23 allows nurses to execute medical
regimens as prescribed by a licensed (or otherwise legally authorized) physician or dentist.


10
  The regulation requires State Medicaid claim forms to include a certification by providers that the information on
the claims is true, accurate, and complete or States may print similar wording above the claimant’s endorsement on
checks payable to providers. In New Jersey, both the Provider Electronic Billing Agreement for Providers With
Billing Agents and the Medicaid Health Insurance Portability and Accountability Act Electronic Data Interchange
Agreement include such certifications.
11
     The total exceeds 32 because 2 claims contain more than 1 deficiency.



                                                           6
For 24 of the 100 claims in our sample, the school-based health provider could not provide
referrals or prescriptions to support the related service. Specifically, 21 speech therapy services,
6 occupational therapy services, and 1 physical therapy service did not meet Federal referral and
prescription requirements; 3 nursing services did not meet State prescription requirements. 12

FEDERAL PROVIDER REQUIREMENTS NOT MET

Federal regulations (42 CFR § 440.110) set forth provider credential requirements for physical,
occupational, and speech therapy services. For 14 of the 100 claims in our sample, the speech
therapy or occupational therapy practitioner associated with the claim did not meet these
regulations.

Speech Therapy Provider Requirements Not Met

Pursuant to 42 CFR § 440.110(c)(2), for a speech therapy claim to be eligible for Medicaid
reimbursement, it must be provided by or under the direction of a speech pathologist who: (1) is
certified by ASHA or (2) has completed the equivalent educational requirements and work
experience necessary to be eligible for ASHA’s certificate of clinical competence or (3) has
completed the academic program and is in the process of acquiring the necessary work
experience to qualify for the certificate.

In a December 28, 1993, letter, CMS asked New Jersey officials to provide assurance that speech
therapy providers would meet the qualifications detailed in 42 CFR § 440.110(c)(2). In an
August 1, 1995, letter, New Jersey assured CMS that it would bill Medicaid for only those
services provided by or under the direction of qualified speech-language practitioners.

However, for 13 of the 100 claims in our sample, the practitioner who provided the speech
therapy service was not ASHA-certified or did not have the equivalent educational requirements
and work experience necessary to be eligible for ASHA certification.

ASHA requires all applicants for certification in speech language pathology to possess a master’s
or doctoral degree granted by a regionally accredited institution of higher education and have
completed a minimum of 75 semester credit hours in a course of study addressing the knowledge
and skills pertinent to the field of speech-language pathology. Additionally, applicants must
complete a 350-hour clinical practicum under the supervision of an individual who holds a
certificate of clinical competence and a 36-week, full-time fellowship.

None of the practitioners associated with the 13 claims in our sample met these requirements.
The practitioners that provided the services were authorized by the New Jersey DOE to serve in
public schools as either a speech correctionist or a speech language specialist. The DOE does
not require specific coursework towards a master’s degree, a 350-hour clinical practicum, or a
clinical fellowship.


12
 The total exceeds 24 because multiple related school-based health services were provided and billed on the same
monthly claim.



                                                        7
Finally, for the 13 sample claims in question, the school-based providers did not furnish any
documentation showing that the services provided met the “under the direction of” requirements.
Pursuant to 42 CFR § 440.110(c) and Medicaid State Operations Letter 95-12, issued on
February 9, 1995, “under the direction of a speech pathologist” means that the speech pathologist
is individually involved with the patient under his or her direction and accepts ultimate
responsibility for the actions of the personnel that he or she agrees to direct.

Occupational Therapy Provider Requirements Not Met

Pursuant to 42 CFR § 440.110(b)(2), for an occupational therapy claim to be eligible for
Medicaid reimbursement, the occupational therapist providing the service must be registered by
the American Occupational Therapy Association (AOTA) or be a graduate of a program in
occupational therapy approved by the Committee on Allied Health Education and Accreditation
of the American Medical Association and engaged in the supplemental clinical experience
required before registration by AOTA. For 1 of the 100 claims in our sample, the individual who
provided the occupational therapy service did not meet these provider requirements. The school-
based health services were provided by an occupational therapist assistant and the provider did
not provide any documentation showing that the services were “under the direction of” a licensed
occupational therapist.

SERVICES NOT DOCUMENTED IN CHILD’S PLAN

Section 1903(c) of the Act permits Medicaid payment for medical services provided to children
under IDEA if the services are included in a child’s plan. Pursuant to Part B of IDEA, school
districts must prepare a child’s plan for each child that specifies all special education and related
services that the child needs. New Jersey’s State Medicaid plan provides that a child’s plan must
state which related services are to be provided. For 8 of the 100 claims in our sample, the related
school-based health or transportation service was not documented in the child’s plan.
Specifically, for five claims, the associated school could not produce the child’s plan, and for
three claims, the child’s plan did not document the services billed.13

CAUSES OF THE IMPROPER CLAIMS

Although the frequency at which New Jersey improperly claimed school-based health services
for Medicaid reimbursement decreased from our prior audit (A-02-03-01003), our review found
deficiencies similar to those previously reported. 14 We found three main causes of the
unallowable claims.




13
  School officials indicated that the child’s plan associated with each of the five sampled claims may have followed
the child to another school. The school officials contacted schools where each child’s plan may have been sent but
were unable to produce the child’s plan associated with each of these claims.
14
     The number of claims in error decreased from 109 out of 150 sampled claims to 51 out of 100 sampled claims.



                                                          8
New Jersey Issued Improper Guidance Regarding Provider Requirements

Some of the improper claims occurred because New Jersey issued guidance to school-based
health providers that did not adequately explain Federal provider requirements. For example,
New Jersey’s guidance did not indicate that, per Federal regulations, speech and occupational
therapy services require referrals.

Providers Did Not Comply With Federal Requirements

Some of the improper claims occurred because school-based health providers did not comply
with Federal requirements. The State handbook specifies that school-based health providers
must maintain records per Federal requirements that document a related service or an evaluation
service was provided on a specific date. However, some providers did not maintain this
documentation. As a result, we were unable to verify that services billed were actually provided.

New Jersey Did Not Adequately Monitor School-Based Health Claims

Based on our review, we determined that monitoring by Maximus was not effective and that
New Jersey did not adequately monitor school-based health claims to ensure compliance with
program requirements by providers and Maximus. From January 2003 through the end of its
contract with New Jersey, Maximus conducted 40 monitoring visits. We reviewed
documentation from these monitoring visits and detected deficiencies similar to those that we
found in our audit.

RECOMMENDATIONS

We recommend that New Jersey:

      refund $8,079,312 to the Federal Government,

      provide proper and timely guidance on Federal Medicaid criteria to its school-based
       health providers, and

      improve its monitoring of school-based health providers’ claims to ensure compliance
       with Federal and State requirements.

NEW JERSEY COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In its comments on our draft report, New Jersey disagreed with our recommended refund. In
addition, New Jersey questioned our sampling methodology and disagreed with what we
accepted as valid referrals. However, New Jersey also described corrective actions that it
planned to take in response to the remaining recommendations.

New Jersey also provided additional documentation for five claims we questioned in our draft
report. After reviewing this documentation, we determined that some services for the five claims
complied with Federal and State requirements and revised our findings and recommended refund


                                                9
accordingly. We have summarized New Jersey’s comments, along with our response, below,
and we have included those comments in their entirety as Appendix D.

Sampling Methodology

New Jersey Comments

New Jersey questioned our sampling methodology used to determine the estimate for the
overpayment associated with unallowable claims for school-based health services and said that it
resulted in inaccurate findings and recommendations. New Jersey stated that our sample size did
not appear large enough for an accurate estimate of overpayments. New Jersey also said that our
sample should have been stratified based on the type of service and the beneficiary’s medical
condition (i.e., type of disability).

Office of Inspector General Response

We followed our longstanding statistical sampling policies with regard to both sample size and
stratification. The Departmental Appeals Board (Board) has supported the Office of Inspector
General’s (OIG) use of statistical sampling to calculate disallowances in accordance with these
policies. Specifically, in one case involving the OIG’s use of statistical sampling, the Board
stated that “Since the individual case determinations were voluminous, the auditors used
statistical sampling techniques in lieu of examining all records to establish the amount of the
disallowance, an approach upheld in principle by courts and this Board before.” 15

Referrals

New Jersey Comments

New Jersey stated that it did “not concur with the auditor’s interpretation of acceptable referral
documentation” for two sample claims (S1-4 and S1-10) and provided documentation related to
the claims. New Jersey said that there is no “definitive guidance” as to how long a referral is
valid to support services. In addition, New Jersey stated that, for three sample claims (S1-28,
S2-15, and S2-29), the individual who referred the speech therapy services was certified by
ASHA but was not licensed by the State’s licensing body. New Jersey stated that, because
ASHA-certified individuals can provide speech therapy services, referrals for speech therapy
services by ASHA-certified individuals should be allowed.

Office of Inspector General Response

We agree that there is no guidance regarding how long a referral is valid to separate services.
Therefore, we accepted claims that we questioned in our draft report related to this issue and
have revised our findings, recommended refund, and Appendix C accordingly. However, we

15
  California Department of Social Services, DAB No. 816 (1986); see also Maine Dept. of Health and Human
Services, DAB No. 2292 (2009); New York State Office of Children and Family Services, DAB No. 1984 (2005);
California Department of Social Services, DAB No. 524 (1984); Ohio Department of Public Welfare, DAB No. 226
(1981); and precedents cited therein.


                                                     10
disagree with New Jersey’s statement that an unlicensed individual can refer services. Pursuant
to 42 CFR § 440.110 (a)(b)(c), a referral or prescription from a physician or another licensed
practitioner of the healing arts is required for physical therapy; occupational therapy; and
services for individuals with speech, hearing, and language disorders.

Additional Documentation

New Jersey Comments

New Jersey provided additional documentation for 3 of the 53 claims (S1-27, S2-32, and S2-45)
questioned in our draft report.

Office of Inspector General Response

We reviewed the documentation that New Jersey provided for the three claims and accepted
some services based on the documentation. Specifically, we accepted some services that we
previously questioned because of referral issues; however, we continue to question services
related to these claims that still did not meet referral, provider, or documentation requirements.
We have revised our findings, recommended refund, and Appendix C accordingly.

Attendance

New Jersey Comments

New Jersey stated that, for one sample claim (S2-39), there was service documentation in place
although attendance data for the corresponding student did not match. New Jersey indicated that
there are multiple reasons that attendance may be in error and that “valid service documentation
data” should be accepted as proof of service delivery.

Office of Inspector General Response

Students must be in attendance on a given day to receive school-based health services on that
day. To determine if a student was in attendance on the date of a sampled service, we reviewed
the school register to determine if school was in session and the student was marked present. We
then compared the school’s attendance record to the SEMI service record. For sample claim
S2-39, the school register indicated that the student was absent from school. Therefore, we did
not accept the billed SEMI service for this claim.




                                                 11
APPENDIXES
                                                                                       Page 1 of 2


                APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population was Medicaid claims for school-based services provided by school-based health
providers in New Jersey that were submitted for Federal Medicaid reimbursement by Maximus,
Inc. (Maximus). The claims were for service dates from July 1, 1998, through January 31, 2005,
with payment dates from July 27, 2003, through October 4, 2006 (our audit period).

SAMPLING FRAME

The sampling frame was a computer file containing 86,533 student-months representing all
claims for school-based services provided by school-based health providers in New Jersey with
payment dates from July 27, 2003, through October 4, 2006. The total Medicaid paid amount for
the 86,533 student-months was $62,563,888 ($32,223,604 Federal share). State officials
extracted the database from the paid claims files maintained at the Medicaid Management
Information System fiscal agent.

SAMPLE UNIT

The sample unit was an individual student-month. Each sampling unit represents all services
provided to an individual student for a month during our audit period that were billed for Federal
Medicaid reimbursement by Maximus.

SAMPLE DESIGN

We used stratified random sampling to evaluate the population of Medicaid school-based claims.
To accomplish this, we separated the sampling frame into two strata:

       - Stratum 1—less than $1,400.00: 70,445 student-months

       - Stratum 2—equal to or greater than $1,400.00: 16,088 student-months

SAMPLE SIZE

We selected a sample of 100 student-month claims with 50 items from each stratum.

SOURCE OF THE RANDOM NUMBERS

We used the Office of Inspector General, Office of Audit Services’ statistical software, RAT-
STATS, to generate the random numbers.
                                                                                    Page 2 of 2


METHOD OF SELECTING SAMPLE ITEMS

We sequentially numbered the student-months in each stratum. After generating 50 random
numbers for each stratum, we selected the corresponding frame items. We then created a list of
the 100 sample items.

ESTIMATION METHODOLOGY

We used RAT-STATS to calculate our estimates. We used the lower limit of the 90-percent
confidence interval to estimate the overpayment associated with the unallowable claims.
                         APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                                         Sample Details and Results
                                Value of                   Value of                   Value of
                                 Frame                      Sample                   Unallowable
Stratum       Claims in         (Federal     Sample        (Federal    Unallowable     Claims
Number         Frame             Share)        Size         Share)       Claims    (Federal Share)
   1           70,445           $16,332,459      50          $11,202       26           $4,577
   2           16,088           $15,891,145      50          $50,881       25          $12,966

 Total          86,533          $32,223,604            100   $62,083         51        $17,542 1



                    Estimated Overpayment Associated with the Unallowable Claims
                         (Limits Calculated for a 90-Percent Confidence Interval)

                                    Point Estimate             $10,619,719
                                    Lower Limit                 $8,079,312
                                    Upper Limit                $13,160,126




  1
      The dollar amounts do not add due to rounding.
                                                                            Page 1 of 3


 APPENDIX C: SUMMARY OF DEFICIENCIES FOR EACH SAMPLED CLAIM

                                         Legend
1 Referral or prescription requirements not met
2 Federal provider requirements not met
3 Services not provided or not supported
4 Services not documented in child’s plan

    Office of Inspector General Review Determinations on the 100 Sampled Claims

                 Deficiency   Deficiency   Deficiency   Deficiency     No. of
    Claim No.        1            2            3            4        Deficiencies
      S1-1                                                                0
      S1-2           X                                                    1
      S1-3           X                                                    1
      S1-4                                                                0
      S1-5           X                                                    1
      S1-6           X                                      X             2
      S1-7                                                                0
      S1-8                                                  X             1
      S1-9                                                                0
      S1-10                                                               0
      S1-11                                                               0
      S1-12                                                               0
      S1-13                                                               0
      S1-14                                                               0
      S1-15                                       X                       1
      S1-16          X                            X                       2
      S1-17          X            X                                       2
      S1-18                                                               0
      S1-19                                                               0
      S1-20                                                               0
      S1-21                                                               0
      S1-22          X                            X                       2
      S1-23                                                 X             1
      S1-24                       X                                       1
      S1-25          X                                                    1
      S1-26          X            X               X                       3
      S1-27          X            X                                       2
      S1-28          X                                                    1
      S1-29          X                            X                       2
      S1-30                                                               0
      S1-31          X                            X                       2
      S1-32                                                               0
      S1-33                                       X                       1
                                                                       Page 2 of 3

            Deficiency   Deficiency   Deficiency   Deficiency     No. of
Claim No.       1            2            3            4        Deficiencies
  S1-34                                                              0
  S1-35                                   X                          1
  S1-36                                                              0
  S1-37                                                              0
  S1-38                                                              0
  S1-39                      X            X                          2
  S1-40         X                                      X             2
  S1-41                                                              0
  S1-42         X            X                         X             3
  S1-43                                                              0
  S1-44                                                              0
  S1-45                                   X                          1
  S1-46         X                                      X             2
  S1-47                                                              0
  S1-48                                                              0
  S1-49                      X            X            X             3
  S1-50                                   X                          1
  S2-1                                                               0
  S2-2                                                               0
  S2-3                                                               0
  S2-4                                    X                          1
  S2-5                                                               0
  S2-6                                    X                          1
  S2-7                                    X                          1
  S2-8                                    X                          1
  S2-9                                                 X             1
  S2-10                                   X                          1
  S2-11                                                              0
  S2-12                                                              0
  S2-13                                                              0
  S2-14                      X                                       1
  S2-15         X                                                    1
  S2-16                                                              0
  S2-17                                                              0
  S2-18         X            X            X                          3
  S2-19         X            X            X                          3
  S2-20                                                              0
  S2-21                                                              0
  S2-22                                                              0
  S2-23                                                              0
  S2-24                                                              0
  S2-25                                                              0
                                                                           Page 3 of 3

              Deficiency   Deficiency   Deficiency   Deficiency     No. of
Claim No.         1            2            3            4        Deficiencies
  S2-26                                                                0
  S2-27                                                                0
  S2-28                                                                0
  S2-29              X                                                 1
  S2-30                                                                0
  S2-31                                                                0
  S2-32                                     X                          1
  S2-33                                                                0
  S2-34                                     X                          1
  S2-35                                     X                          1
  S2-36                                     X                          1
  S2-37                                     X                          1
  S2-38                                     X                          1
  S2-39              X        X             X                          3
  S2-40              X        X             X                          3
  S2-41                                     X                          1
  S2-42                                                                0
  S2-43                                     X                          1
  S2-44                                                                0
  S2-45              X         X                                       2
  S2-46              X         X            X                          3
  S2-47                                                                0
  S2-48                                                                0
  S2-49                                     X                          1
  S2-50                                     X                          1
Category
 Totals              24       14           32            8            78
51 claims in error
                                                                                                             Page l of6


                   APPENDIX D: NEW JERSEY COMMENTS 





                                     II1aU of PI"" ,Jns,g
                                    D EPAJnM&IT OF H UMAN SEltVICES
                        D IVISION OF MEDICAL AssiSTANCE AND HEAL11i SERVICES 

                                                PO Box 712 

                                         T..EN'ltlJf HI 08625-07 12 

                                        TEtB'HONi! 1-800-356-1561 

                                             August 27, 2009


James P. Edert
Regional Inspector General for Audit Services
Department of Health and Human Services
OffICe of Inspector Genet'al
OffICe of Audit Services Region II
Jacob K. Javits Federal Building - Room 3900
New Yorl!;, NY 10278

Report Number A-02-07-01051

Dear Mr. Edert:

T hiS Is in response to your tetter dated May 14, 2009 concerning the Department of Health and Human
Services, OffICe of the Inspector General's (OIG) draft report entitled ·Review of New Jersey's Medicaid
School-Based Health Claims Submitted By Maxlmus, Inc."             Your letter provides the opportunity to
comment on this draft report.

The objective of this review was to determine whether New Jersey's Medicaid school-based health claims
submitted by its billing agent, Maximus, complied with Federal and Stale requirements. The review
period was July 27, 2003 through October 4, 2006.

The draft audit report concJuded thai New Jersey's dalms for reimbursement of Medicaid schoc)I.based
health seMceS submitted by Maximus did nol fully oomply with Federal and Slate requirements. WhHe 47
of the 100 school-based health claims in !he sample fully complied with an Federal and State
requirements, the remaining 53 did not meet one or more of the applicable requirements , The report
indicates that the non-compliance Issues were manifested in four types of deficiencies: services wel'e not
provided or not suppol1ed; referral or prescription requirements were not met: federal provider
requirements were not met; and services were not documented in child's plan. The report states tha t the
defICiencies occurred because: the State provided iTlproper or untimely guidance concerning Federal
Medicaid requirements to school-based health providers; school-based health providers did not comply
with State gYidance related to Federal requirements: and the Stale did not adequately monitor schooI­
based health claims from providers fOf compliance ....i th Federal and State requirements. Based on the
sample results, t!'le auditOf estimated that New JefSey was improperly reimbursed $8,849,949 In Federal
Medicaid funds during the July 27, 2003, through October 4. 2006, audit period.

Following are lhe auditors' recommendations and the DivIsion of Medical AsSistance and Health SeMces
(OHMAS) responses:

I.      RECOMMENDATION:

New Jersey should refund $8,849,949 to the Federal Government
                                                                                                                    Page 20f6




James P Edetl
August 27, 2009
Page 2



         RESPONSE:

The State does not concur with this recommendation. Based on the analysis outlined below performed
with the assistance of.a statisllc!an, it appears the sampling methodology used by the audllOf provided
Inaccurate findings and recommendations.


                  ::';~~~;W'!;'i'!~~~Ii'," in order 10 accurately estimate some characteristic of the
t~~~~;~~5:~;            necessary to    I       population.' This definition of a population fOf a particular
~                    sampling frame. Individual elements and units within the sampling frame are selected
                   various kinds of sampling proce<iUfes.

The selection of random samples is the preferred method for studies in which population characteristics
are esUmated based on sample because random sampling leads to extremely accurate estimates when
the sampling procedures are appropriate fOf what we know (or can assume) about the characteristics of
the total populaUon. Random samples can be selected by simple random sampling or by stratified random
sampling. Simple random sampling leads to accurate results if we know Of can assume thaI the
population Is relatively homogenous with respect to the questions of interest. For instance, a sample of
student-months representing the rate of non-eompliance of all Medicaid school-based health dalms
submitted for one type of service fOf individuals within one type of disability cat8gOl"y selected by simple
random sampling may be extremely accurate for estlmating the overall rate of non-compliance.

If known or assumed, however, that the population Is heterogeneous with respect to the questions of
inlerest so that the findings are likely to differ substantially within subgroups of the population, the validity
of the estimates of population characteristics is greatly improved by stratified random sampling. Stratified
random sampling ensures that the proportion of Individual units w;thin each subgroup of the sample
matches the proportion of individual units within each subgroup of the total population and thus the
combined estimates derived from subgroups within the sample represent the characteristics of the total
population accurately.

Medicaid daims for school-based services in New Jersey include a broad array of different types of
services. The services for which school-based health claims are submitted indude:

1. Rel"labililative services-occupatlonal, physical, and speech-language therapies; psychological
counseling and psychotherapy; and nursing;
2. Evaluation services Identifying the need for SpecifIC services and presCfiDing the range and frequency
of services that the student requires which may include reevaluation Of review of the current services
specifl8d In the chHd's plan; and
3. Specialized transportation s9fVices In a vehicle adapted to S9fVe the needs of the disabled, inciudif"IQ
specially adapted school buses, when provided on the same day as a related service and when
transportation is included in the child's plan.

Each subgroup of services is quite likely to differ substantially in ways that may impact overall estimates
of noncompliant claims fOf the entire population of school-based health daims. In addiUon to the cost of
services, the proportion of daims submitted varies by type of service. The proportion of daims submitted
as well as the extent to which multiple claims are submrtled for services provided across all three majO!"
types of services differs substantially by disability group as well with some lower-Incidence disability
groups accounting for a relatlvely high proportion of claims. Since H Is likely that types of noncompliance-­
services not provided or supported, services lacking a referral Of prescription, sel"Vices meeting Federal
provider qualification requirements, and services not documented in the child's plan- afe also correlated
with the type of services provided, any estimation procedure based on a sampling frame that does not

, McBurney, D. H., & White, T. L (201)7). Re5earch M ethat/5. Thomson Wadswortll, Belmont, CA.
                                                                                                                   Page30f6




James P Edert
August 27, 2009
Page 3



lake these factors Into account In estimatiog the Incidence of noncompliant claims overall will not be
accurate.

The sampling frame for the estimates of noncompliance reported In the draft report is described as ' a
computer fde contalnlog 86,533 student-months representing all claims provided by schooI-based health
providers in New Jetsey wfth payment dates from July 27, 2003, through October 4, 2006: The sample
unit was an Individual student·month representing all services provided to an Individual st\ldenl for a
month during the audil period that were billed for Federal Medicaid reimbursement by Maximu s.

Despite the heterogeneity of types of claims filed and likely correlations among types of claims and types
of claim deficiencies and disability groups, the only variable used to define the sampling frame for the
audit was the level of relmbtJrsement. The population of student-months Identifted for the audit was
stratifted in this way.

Table 1. GIG sample results and estimates


Nom""                       (Fedefal Share)     Size




This sampling frame does not accurately estimate noncompliant claims because key factors likely to be
highly correlated with noncompliance estimates such as type of servloe-rehabilitation, evaluation, and
transportation-and disability groups are not taken into account along with the dollar amount of the claims.

Even this analysis does not accurately reflect the characteristics of the defined strata as shown by the
lable below. The purpose of defining a sampling frame Is to take the proportionality of the subgroups in
the sample and population into account In deriving the population estmates. As shown in Table 2, this
was not done for this analysis. The total value of claims in Stratum 1 was 51'" of the lotal. In the sample,
however, the value of claims for Stratum 1 was only 18 "" of the total value. The sample thaI was drawn
does not accurately reflect the relative value of claims in each stratum.

Table 2. OIG sample results and estimates with population and sample percentages

                                                                                    I
                                                                                  Claims




T11e draft report Is silent as 10 the JustifICation for setecting a sample size of only 50 sludent-monlh claim s
from a stratum with a total of 70.445 student-months and a sample size of only 50 siu<lent-month claims
from a stratum with a total of 16,088 student-months for a lotal of only 100 student·month daims from a
total of 86,533 studenl-month claims. These samples do not appear large enough for an accurate
estimate of overpayment for unallowable school-based Medicaid dalms In New Jersey. As discussed in
the analysis of the sampling methodology, there Is a great deal of variance in types of claims filed and the
amount of those claims. When II Is known thai population characteristics vary greaUy, It Is usual for
                                                                                                                Page 4of6




James P Edert
August 27, 2009
Page 4



researchers studying that characteristic to setect fairly targe samples in order to obtain valid estimates of
the population characteristic. Given the broad range of types of and amounts of claims, il does not appear
that the results found for this very small sample of claims generalize aCfOSS the entire population of
school-based Medicaid ctaims in New Jetsey during the period under investigation.

The sampling frame chosen for this Investigation does not seem adequate to provide a valid estimate of
the amount of overpayment associated with unallowable claims for schoot-based Medicaid services In
New Jersey. The sampling frame chosen fails to account for many key variables such as type of service
and type of disability served likely to be correlated with both the value of claims and types of defICIencies
in claims. In addition, given the known variance across types of claims and the amount of claims across
the state, the sample sizes chosen were too small to justify generalil:8tion of the resolts to the en1ire
population of claims in the state.

A nalysIs of Citations for no R.,.".'
The State does not concur with the auditor's interpretation of acceptable referral documentation. The
audit results cited instances where a sludent's referral was determined to be outdated. There is no
definitive ~idance as to how long a referral from a qualified physician or licensed practitioner is valid to
support serviCes, as per the federal Medicaid guidelines at 42 CFR§ 440.110(c). The New Jersey State
Plan does not have any limitations on the dates for referrals, arid does not contradict CMS regulations.
Therefore, citations 1-4 and 1-10 where a referral was found on file but was deemed to be out of date
should be reconsidered and discounted from the findings. For citation 1-4, the OIG was provided a copy
of the referral lor the four (4) ST services with a total FFP of $75.42: and for citation 1-10, the OIG was
provided a copy of the referral(s) for the two (2) OT and two (2) PT services with a total federal financia l
participation (FFP) of $102.46.

Additionally, some of the citations, specifICally 1-28, 2-15 and 2-29, are related to speech referrals that
were made by Individuals having the ASHA certification and not a NJ state license. While we agree thai
the provider of the refen-al did no! have the NJ license, we believe that the federal standard is to accept
the ASHA certifICation for speech therapy. Therefore those referrals should be deemed In compliance.
F01 citation 1·28 there are six (5) ST services with a total FFP of $163.21 that we believe shoutd be
allowed; for citatioo 2-15 there are five (5) ST services with a total FFP of $4G6.03that we believe should
be allowed; and fOf citation 2-29 there are seven (7) ST services with a total FFP of $175.96 that we
believe should be allowed.

In addition, the audit results did not Indicate what serves as acceptabte documentation of a referral for
services. In some cases, the IEP was indicated as being the source of referral. However, there is no
indication of other documentatloo that was accepted by lhe team. For the purposes of this audit, further
guidance should be given to the State as to what documentation Is acceptable fOf the puf?OSes of
substantiating a referral fOf services. The districts should then be allowed additional time to produce the
documentation requested. Until further guidance can be provided, the fifteen ctaims cited strictly fOf a
lack of referral should be put aside arid discounted Irom Ihe findings, for a lotal FFP of $377.10. Citation
numbers for this issue Include 1-2 and 1-25.


                       Ii               i   i

                     that 


    Three (3) OT services for citation 1-27 - total FFP is $75.82
    Fifteen (15) ST services lor citation 2-32 - tolal FFP is $1 ,224.08
• 	 Six (6) PT services fOf citation 2-32 - total FFP is $244.62 (3 PT overlaps with 15 ST)
    Three (3) PT services for citation 2-45 - total FFP is $244.82
                                                                                                              Page 50f6




James P Edert
August 27, 2OO9
Page 5



 Att,ndan"
In Citation 2-39 there was service cioctJmentation tn place, but the attendance data did not match, per the
auditor. It seems the service documentation should take precedence, and that this is a valid claim . There
are muttiple reasons that attendance data may be in error, Including attendance policy discrepancies and
system and logistical challenges in collecting and maintaining attendance data. Valid service
documentation data should be accepted as proof of service delivery. Therefore, we believe that the 1
counsel ing sefVice with a total FFP of $81 .81 should be allowed.

II.     RECOMMENDATION:

New Jersey should provide proper and timely guidance on Federal Medicaid criteria to its school-based
health providers.

        RESPONSE:

New Jersey has taken a number of steps to provide guidance to the school districts. Several staff are
devoted to administering the project, including coordination of relevant State agency efforts and
communication to school districts. This includes an updated provider manual, a reference website, and
training sessions. Since the lime period of this audit, New Jersey has taken additional steps Il"lcluding:

 •   The State Issued a competitive bid process and In 2005 hired a new vendor to administer the project.
Together we have updated the Handbook 'Ntllch now Includes citations to both Federal and State
guidelines.
 • Training sessions are done both regionally and on a on&-on-one basis with distriCt admlnistfators.
    Regional meetings are held twice e year and ace well attended by districts. The vendor is required to
COVel" the regulatiOfls of the program at these meetings.
•    In addition, each district subm itting claims has partiCipated In an administrator training with the
vendor, where the regulations are covered directly with the district.
•   The State updated the reference website to now Include the Provider Handbook, as well as other
policy documents that explicitly state how 10 conectly Implement the program.
•     The vendor has provided a loll free number and an online message board for districts to access.
.. T he State implemented an electronic tool for school districts to use to docum8flt health related
serviCes and implemented mandatory compliance checks where districts provide additional data before
claims are processed.

III.    RECOMMENDATION:

New Jersey should Improve its monitoring of school-baSed health providers' claims to ensure compliance
with Federal and State requirements .

        RESPONSE:

New Jersey has improve<! its monitoring of the school-based health providers. The current vendor has
implemented stronger post claiming quality assurance procedures, which Includes a yearty OIl-site
monitoring of a sample set of districts provided by the Stale. Any lapses In compliance are expliciUy
stated to the district with suggestions on how to align their internal processes to match Federal and State
regulations . Claims Ihat do not comply with Federal and State requirements are appropriately adjusted.
                                                                                                             Page 60f6




James P Edert
August 27, 2009
Page 6



The professionalism and courtesy of !he auditors throughout this audit Is noteworthy and greatly
appreciated. The opportunity 10 review and comment on this draft audit report is also greatly appreciated.
If you have any questions Of require additionallnfOfmatlon, please contacl me or David Lowenthal at 6(}9.
588-7933.



                                               A-.t

                                                1::"~
                                                DlrectQ(

JRG:L
c: 	     Jennifer Velez
         David Lowenthal
